                OFFICE OF INSPECTOR GENERAL

    FINANCIAL MANAGEMENT SYSTEM
     AND COMPLIANCE EVALUATION
                                    ON SELECTED
                                   NEA GRANTS TO

                      BRIC Arts/Media/Bklyn, Inc.
                                       New York, NY

                          REPORT NO. SCE-14-01

                                      March 25, 2014




                                 REPORT RELEASE RESTRICTION

In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on
the National Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly
available with the approval of the NEA Office of Inspector General. Information contained in this report
may be confidential. The restrictions of 18 USC 1905 should be considered before this information is
released to the public. Furthermore, information contained in this report should not be used for purposes
other than those intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                                   INTRODUCTION

BACKGROUND

Brooklyn Information and Culture Arts/Media/Bklyn, Inc. (BRIC Arts) was established
in 1979, to enrich the cultural landscape of Brooklyn by presenting, producing and
enabling a wide array of quality contemporary art, performing arts and community media
programs that reflect Brooklyn's creativity and diversity. BRIC Arts also provides
resources to launch, nurture and showcase artists and media makers.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this financial management system and compliance evaluation by the
National Endowment for the Arts (NEA) Office of Inspector General (OIG) is to
determine whether the organization’s financial management system and recordkeeping
complies with the requirements established by the Office of Management and Budget
(OMB), and NEA’s General Terms and Conditions for Grants and Cooperative
Agreements to Organizations (General Terms). In addition, we evaluated the recipient’s
compliance with OMB and NEA guidance for the management of the American
Reinvestment and Recovery Act of 2009 (Recovery Act) funding.

The Recovery Act provided $50 million to NEA to be distributed in direct grants to fund
arts projects and activities which preserve jobs in the nonprofit arts sector threatened by
declines in philanthropic and other support during the economic downturn. Consistent
with the language in the Act, eligible projects were generally limited to salary support
and fees for artists or contracted personnel.

The review was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency Quality Standards for Inspections and Evaluations, as applicable.
Accordingly, we included such tests of records and other procedures that were considered
necessary under the circumstances. The Standards require that we obtain sufficient and
appropriate evidence to support a reasonable basis for our findings and conclusions.

During the period under review, BRIC Arts had twelve NEA grants opened or closed
within the last three years, with awards totaling $459,000. We judgmentally selected and
reviewed two of the twelve grants in which NEA funds had been drawn down and costs
had been reported.

The two grants we reviewed were as follows:

                                                           Total Outlays
                   Grant No.         Award Amount
                                                             Reported
               09-4188-7140                   $ 50,000           $ 50,000
               09-5100-8137                     54,000            451,555
               Totals                         $104,000           $501,555




                                             1
PRIOR AUDIT COVERAGE

During the past five years, NEA OIG has not issued any audit reports on Federal grants
awarded to BRIC Arts. As of our site visit on June 18, 2012, the most recent
independent auditor's report on BRIC Arts was for the year ended June 30, 2011. This
audit was conducted by Loeb & Troper LLP, Certified Public Accountants, which issued
an unqualified (clean) opinion. BRIC Arts was not subject to the audit requirements of
OMB Circular A-133.

                          RESULTS OF EVALUATION
Our evaluation concluded that BRIC Arts did not comply with the financial management
system requirements established by OMB and NEA for Federal awards. BRIC Arts did
not separately identify Federal funds in its financial system, did not maintain personnel
activity reports, reported unallowable costs and costs incurred outside of the grant period
in its total outlays. BRIC Arts did not have written policies and procedures in place for
the management of Federal awards and to ensure that debarred or suspended contractors
or recipients did not receive Federal assistance. BRIC Arts also did not have a Section
504 self-evaluation on file, as required.


                         FINANCIAL MANAGEMENT
RECOVERY ACT GRANT NO. 09-4188-7140

BRIC Arts was awarded a Recovery Act grant in the amount of $50,000 with no
matching requirement. During our site visit, BRIC Arts provided documentation in the
amount of $50,000 to support salary costs.

Documentation of Federal Awards

Recovery Act fund recipients were required by OMB and NEA to separately identify the
source and application of Federal funds. During our site visit, BRIC Arts provided
expenditure listings that did not separately identify Federal awards.

We were informed by BRIC Arts that costs for this award were distributed between two
cost centers, Contemporary Arts - Exhibition (701) and Contemporary Arts - Education
(703). However, expenditures for Grant No. 09-5100-8137 were also charged to cost
center 703. Expenditures within the cost center were not separately identified by grant or
project, therefore we were unable to identify specific expenditures for each grant charged
to the cost center.

Our review of the Federal Financial Reports (FFR) and the expenditure listings provided,
found that BRIC Arts reported overlapping costs between this award and NEA Grant No.
09-5100-8137. In one instance, BRIC Arts charged an allocation of $13,600 of an annual
salary to this grant and 100% of the same annual salary to Grant No. 09-5100-8137. In



                                             2
another instance, costs for teaching artists, in the amount of $14,400 were included in
total outlays reported on both awards.

NEA's General Terms, which addresses the requirement to have an adequate financial
management system, states, in part:

       There can be no overlapping project costs between Federal awards. Therefore,
       separate accounting records must be maintained for each award. OMB Circular A-
       110 (2 CFR 215), Section 2, and the "Common Rule," Section 1157.20, as applicable,
       establishes standards for financial management systems of recipients (i.e.,
       accounting systems, internal controls, allowable costs, cash management, etc.). The
       financial management systems of recipient organizations and their subrecipients
       must meet these standards.

Without policies and procedures in place to adequately identify the source and
application of Federal awards separately, costs charged to the award cannot be
determined and may result in overlapping costs. As a result, we questioned the above
costs in the amount of $28,000. However, BRIC Arts provided adequate supporting
documentation for these costs. Therefore, we are accepting the costs for this grant and
disallowing the overlapping costs under Grant No. 09-5100-8137. We are not requiring
any additional documentation to support costs for this grant.

Although the Recovery Act funding program has been completed, NEA requires that
grant recipients maintain separate accounting records for each award. Therefore, we are
recommending that BRIC Arts develop written policies and implement procedures to
ensure each Federal award is separately identified in its financial system.

Summary of Grantee Response: BRIC Arts' response stated that the appearance of
overlapping costs is due to the fact that the project for Grant 09-5100-8137 was defined
as the overall Contemporary Arts Education program; all expenses, including those
covered from this grant, were therefore included as part of the project. No expense was
allocated to multiple funding streams. However, BRIC Arts concurs with the
recommendation and agreed to implement corrective actions to separately identify
Federal awards.

Personnel Activity Reports

BRIC Arts did not provide personnel activity reports (time and effort reports)
documenting the distribution of activity for salaries charged to the award. OMB and
NEA required recipients of Recovery Act funding to maintain adequate personnel activity
reports when charging a person’s salary in whole or in part to this award.

NEA and OMB guidelines for the Recovery Act awards states, in part:
   Recipients must maintain adequate time-and-effort reports (i.e., personnel activity reports) when
   charging a person’s salary in whole or in part to the grant.




                                                3
Without project specific personnel activity reports, the actual time allocated to this
project cannot be determined. As a result, we are questioning costs in the amount of
$35,600. However, BRIC Arts provided adequate documentation (salary expenditure
listing from BRIC Arts' financial management system, Internal Revenue Service's Form
W-2s, Employee Earnings Record and Attendance Sheets) to support salary costs
charged to the Recovery Act grant. We were able to determine, from the documentation
provided, that the salaries charged to this award were for the approved positions.
Therefore, no further documentation for this award is being requested.

Although the Recovery Act funding program has been completed, NEA requires
recipients to maintain personnel activity reports for awards that are $50,000 or more. We
are recommending that BRIC Arts develop written policies and implement procedures to
ensure that individual personnel activity reports are maintained for employees whose
salaries are charged, in whole or in part, to future grant awards that are $50,000 or more.
An example of a personnel activity report can be found on NEA's website at
http://arts.gov/grants/manage-your-award/grants-organizations-fy12-later.

GRANT NO. 09-5100-8137

BRIC Arts was awarded an Arts Education grant in the amount of $54,000 with a 1:1
matching requirement. BRIC Arts reported total outlays of $451,555 on their FFR.
During our site visit, BRIC Arts provided documentation in the amount of $450,417 to
support grant costs.

Documentation of Federal Awards

We were informed by BRIC Arts that costs for this award were charged to the cost
center, Contemporary Arts - Education (703). However, expenditures for Grant No. 09-
4188-7140 was also charged to cost center 703. Expenditures within the cost center were
not separately identified by grant or project, therefore we were unable to identify specific
expenditures for each grant charged to the cost center.

As discussed above, BRIC Arts reported overlapping costs between this award and NEA
Grant No. 09-4188-7140 in the amount of $28,000. We accepted these costs on Grant
No. 09-4188-7140 and are disallowing $28,000 charged to this grant.

BRIC Arts total costs for this award exceeded the matching requirement, even if all of the
costs in the amount of $28,000 were disallowed (see table below). Therefore, we are not
requiring any additional documentation to support costs for this grant and no additional
recommendation will be made. (See recommendation under Grant No. 09-4188-7140,
Documentation of Federal Awards.)




                                             4
Costs Incurred Outside of the Award Period

BRIC Arts included costs in the amount of $77,257 in its total outlays which were
incurred outside the award period. The documentation provided to support costs were
from June 1, 2009 through June 30, 2010, however, the grant period ended May 31, 2010.

NEA General Terms states, in part:

       All costs must be incurred within the project period specified in the award document or an
       approved amendment.

Costs which are not incurred within the award period will be disallowed and reduce total
outlays, which may result in potential refunds.

Based on the finding above, we are disallowing and reducing costs claimed under the
grant by $77,257. BRIC Arts total costs for this award exceeded the matching
requirement, even if the above costs were disallowed (see table below). Therefore, we are
not requiring any additional documentation to support costs for this grant.

We recommend that BRIC Arts develop written policies and implement procedures to
ensure that only actual and allowable costs, within the award period, are reported on the
FFR. Those procedures should ensure that employees, who prepare the FFRs, are familiar
with NEA guidance and the cost principles of relevant OMB guidance.

Personnel Activity Reports

BRIC Arts included $137,133 for salary expenses and fringe benefits in its total outlays.
BRIC Arts did not maintain adequate personnel activity reports for employees whose
salaries were charged, in whole or in part, to either the award or the matching funds for
awards exceeding $50,000, as required by NEA. The documentation provided to support
salary costs was not project specific. Therefore, we were unable to determine the actual
time spent on this grant.

2 CFR Part 230, 8.m. states, in part:
       (1) Charges to awards for salaries and wages, whether treated as direct costs or indirect
       costs, will be based on documented payrolls approved by a responsible official(s) of the
       organization. The distribution of salaries and wages to awards must be supported by
       personnel activity reports, as prescribed in subparagraph 8.m.(2) of this appendix, except
       when a substitute system has been approved in writing by the cognizant agency.

       (2) Reports reflecting the distribution of activity of each employee must be maintained for all
       staff members (professionals and nonprofessionals) whose compensation is charged, in whole
       or in part, directly to awards. . . . Reports maintained by non-profit organizations to satisfy
       these requirements must meet the following standards:

               (a) The reports must reflect an after-the-fact determination of the actual activity of
               each employee. Budget estimates (i.e., estimates determined before the services are
               performed) do not qualify as support for charges to awards.



                                                 5
               (b) Each report must account for the total activity for which employees are
               compensated and which is required in fulfillment of their obligations to the
               organization.

               (c) The reports must be signed by the individual employee, or by a responsible
               supervisory official having first hand knowledge of the activities performed by the
               employee, that the distribution of activity represents a reasonable estimate of the
               actual work performed by the employee during the periods covered by the reports.

               (d) The reports must be prepared at least monthly and must coincide with one or
               more pay periods.

As discussed above, the Recovery Act Grant No. 09-4188-7140 was charged $13,600 of
an employee's annual salary and 100% was charged to this grant, resulting in the same
salary being reported on two grant awards. Therefore, we are disallowing $13,600 of the
annual salary charged to this grant. We have also disallowed salary and fringe benefits
costs incurred outside the award period in the amount of $13,561, which is included in
the disallowed costs above (See Costs Incurred Outside of the Award Period.) As a
result, salary costs are reduced by $27,161, resulting in $109,972 total allowable salary
costs. However, BRIC Arts did not maintain personnel activity reports, as required.
Therefore, we are questioning salary costs in the amount of $109,972.

BRIC Arts total costs for this award exceeded the matching requirement, even if all of the
questioned salary costs in the amount of $109,972 were disallowed (see table below).
Therefore, we are not requiring any additional documentation to support costs for this
grant and no additional recommendation will be made. (See recommendation under
Grant No. 09-4188-7140, Personnel Activity Reports.)

Unallowable Costs

BRIC Arts included costs of $5,444 (for hospitality and a project described as, "Family
Day" that were not consistent with the project budget approved by NEA. According to
 2 CFR 230, Appendix B, costs must be allowable, reasonable and allocable for the
performance of an award.

NEA General Terms states, in part:

       Project activities must be consistent with those approved for funding by the Arts
       Endowment.

Costs which are not consistent with those approved for funding may be disallowed and
reduce total outlays, which may result in potential refunds.

BRIC Arts total costs for this award exceeded the matching requirement even if all of the
above costs in the amount of $5,444 were disallowed (see table below). Therefore, we are
not requiring any additional documentation to support costs for this grant and no
additional recommendation will be made. (See recommendation under Costs Incurred
Outside of the Award Period.)


                                                6
    Total Outlays                                                            $450,417
     Less: Disallowed Costs
           Overlapping Costs                                                   (28,000)
           Costs Incurred Outside of the Award Period                          (77,257)
           Unallowable Costs                                                    (5,444)

           Questioned Costs
           Salary and Fringe Benefits                                         (109,972)

    Adjusted Total Outlays                                                    $229,744
    NEA Share & Recipient's Required Match                                    (108,000)
    Overmatched                                                               $121,744

Summary of Grantee Response: BRIC Arts' response stated that Family Day was a
family arts education program funded by IMLS; hospitality expenses were very modest
snacks for community events. These activities were included because the project for this
grant was defined as the overall Contemporary Arts Education program. These expenses
were not charge to the NEA. However, BRIC Arts concurs with the recommendation and
agreed to implement corrective actions to ensure that only actual and allowable costs,
within the award period, are reported on the FFR.

Debarment and Suspension

BRIC Arts did not have policies and procedures in place to ensure that contractors or
recipients were not debarred or suspended from receiving Federal assistance prior to the
payment or award of Federal funds.

NEA General Terms states:

          You must comply with requirements regarding debarment and suspension in Subpart C of 2
          CFR part 180, as adopted by the Arts Endowment in Title 2 CFR, Chapter 32, Part 3254.

Subpart C of 2 CFR part 180.300, OMB Guidelines to Agencies on Governmentwide
Debarment and Suspension (Nonprocurement), states, in part:

          You must verify that the person with whom you intend to do business is not
          excluded or disqualified. You do this by:

              (a) Checking the EPLS1; or
              (b) Collecting a certification from that person if allowed by the Federal agency
                  responsible for the transaction; or
              (c) Adding a clause or condition to the covered transaction with that person


1
    Now part of the System for Awards Management (SAM).




                                                   7
We recommended that BRIC Arts develop written policies and implement procedures to
ensure that contractors and recipients are not debarred or suspended from receiving
Federal assistance prior to the payment or award of Federal funds.

Management of Federal Awards

BRIC Arts did not have a written manual/handbook with formal policies and procedures
for the management of Federal awards.

2 CFR Part 215 states the recipients of Federal awards should have:

       Written procedures for determining the reasonableness, allocability, and allowability of
       costs in accordance with the provisions of the applicable Federal cost principles and the
       terms and conditions of the award.

The handbook/manual could include policies and procedures for documenting Federal
awards, accounting for program income and expenses, maintaining personnel activity
reports and ensuring that debarred or suspended contractors or recipients do not receive
Federal assistance. It could also incorporate publications such as the NEA General
Terms, NEA-OIG's Financial Management Guide for Non-profit Organizations, and the
cost principles of relevant OMB guidance.

We recommend that BRIC Arts develop and implement a written manual/handbook
containing policies and procedures relating specifically to managing Federal awards.

Section 504 Self-Evaluation

BRIC Arts provided the auditor with correspondence regarding accessibility. However,
BRIC Arts did not have a completed Section 504 self-evaluation on file.

As noted in NEA’s General Terms, “A Section 504 self-evaluation must be on file at
your organization.” A Section 504 Self-Evaluation Workbook, which can be completed
online, is available at www.arts.gov/about/504Workbook.html.

Section 504 of the Rehabilitation Act of 1973, as amended, provides for equal
opportunity to enter facilities and participate in programs and activities. It does not
require that every part of every facility or program be accessible. The important
considerations are that individuals with disabilities have the same opportunities in
employment, the same opportunities to enter and move around in facilities, the same
opportunities to communicate and the same opportunities to participate in programs and
activities as non-disabled people. Further, it is important to offer employment, programs,
and services in settings that are integrated rather than to segregate individuals with
disabilities with special programs.

We recommend BRIC Arts complete, and update as necessary, a Section 504 self-
evaluation to ensure compliance with the Rehabilitation Act of 1973, as amended. A




                                                 8
copy of the self-evaluation should be submitted to the OIG. The OIG will provide a copy
to NEA’s Office of Civil Rights/EEO.

                              EXIT CONFERENCE
A preliminary exit conference was held with BRIC Arts officials on June 18, 2012.
Subsequent to our site visit, a telephone exit conference was held with BRIC Arts on
March 21, 2014 to discuss the draft report. BRIC Arts officials agreed with our
recommendations and provided responses to two of the findings, as indicated above.

                             RECOMMENDATIONS
We recommend that BRIC Arts:

1. Develop written policies and implement procedures to ensure each Federal award is
   separately identified in its financial system.

2. Develop written policies and implement procedures to ensure that individual
   personnel activity reports are maintained for employees whose salaries are charged, in
   whole or in part, to future grant awards that are $50,000 or more.

3. Develop written policies and implement procedures to ensure that only actual and
   allowable costs, within the award period, are reported on the FFR. Those procedures
   should ensure that employees, who prepare the FFRs, are familiar with NEA
   guidance and the cost principles of relevant OMB guidance.

4. Develop written policies and implement procedures to ensure that contractors and
   recipients are not debarred or suspended from receiving Federal assistance prior to the
   payment or award of Federal funds.

5. Develop and implement a written manual/handbook containing policies and
   procedures relating specifically to managing Federal awards.

6. Complete, and update as necessary, a Section 504 self-evaluation to ensure
   compliance with the Rehabilitation Act of 1973, as amended. A copy of the self-
   evaluation should be submitted to the OIG. The OIG will provide a copy to NEA’s
   Office of Civil Rights/EEO.




                                            9
